                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: /?US/ 1647 7                                                                    Page 1 of 1



         We received a concern from the complainant1 that members of his academic department had
         stolen one of his graduate student^,^ whom he had worked with almost 2 years. The complainant
         alleged the theft of his graduate student was abusive behavior by members of his department
         towards him and this abuse resulted in wasted NSF funds3 used to partially support the graduate
         student while she worked with him. The complainant claimed that the impetus behind the abuse
         against him was the consequence of a prior allegation of research misconduct against him at his
         university. The complainant explained that both the institution's and N S F ' S ~ investigations into
         this prior allegation determined that the allegation had no substance. However, the complainant
         claimed that some members of his department did not agree with this conclusion, discussing this
         prior allegation with his graduate student, which biased the graduate student to completely sever
         her relationship with him and to select another graduate advisor in the department.

         The complainant provided copies of email exchanges between himself and the graduate student,
         which clearly showed the graduate student's decision to severe all future interactions with the
         complainant. The complainant explained that he saw "code" words in these emails from the
         graduate student that showed him that some members of his department had influenced her to
         take this action.

         Our review determined that the institution, as the recipient of the NSF grant, is responsible for
         the administration of the grant, including the oversight of the individuals who are supported by
         these funds. The complainant told us he planned to bring this matter to the institution's attention
         to resolve the matter. From the information we have at this time, we concluded that this is a
         management1 administrative issue that should be handled by the institution.

         This case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
